No. 20-1525

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS ARCHER
Petitioner
vs.
AMERICA'S FIRST FEDERAL CREDIT UNION
Respondent

On Petition for Writ of Certiorari To
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETIONER'S REPLY TO BRIEF IN OPPOSITION
TO PETITION FOR WRIT OF CERTIORARI

LEWIS ARCHER
9070 O'Hara Drive
Mobile, Alabama 36695
251 367-8904

RECEIVED
JUN - 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Reply to Respondents Brief in Opposition to
Four Questions Presented
The Respondent while saying this is not a
Constitutional issue, makes the case why it is. Both State
and Federal courts are expected to be courts of competent
jurisdiction for RESPA claims according to 12 U.S.C.
ยง26141. However, "no defense for Federal Loss Mitigation
wrongdoing by lenders in non-judicial State Court" renders
the two courts unequal. and presents a Constitutional
issue. It turns Res-Judicata into a shield to protect Lenders
who've broken Federal RESPA laws and then specifically go
to non-judicial State Courts to escape impunity.

1 12

U.S.C. ยง2614. Jurisdiction of courts; limitations
Any action pursuant to the provisions of section 6, 8, or 9 [12

U.S.C. ยง 2605, 2607, or 26081 may be brought in the United States
district court or in any other court of competent jurisdiction, for the
district in which the property involved is located, or where the violation
is alleged to have occurred, within 3 years in the case of a violation of
section 6

Reply to Respondents Brief in Opposition to
LIST OF ADDITIONAL PARTIES
While Shearie Archer is an additional party, affected
parties include thousands possibly millions of homeowners
not only in the 21 Non-Judicial foreclosure States2 but
across the nation who face a tsunami of evictions and
foreclosures after the Coronavirus moratorium is lifted on
June 30th, 2021.
Additionally, affected parties not only include Respondent,
America's First Federal Credit Union on the Respondent
side but also

all the Lenders in 21 nonjudicial

foreclosure States who are poised to take advantage of the
"no defense for Federal Loss Mitigation wrongdoing by
lenders in Non-Judicial State Court" loophole after the
Coronavirus moratorium is lifted on June 30th, 2021.

2

Foreclosures are usually nonjudicial in the following states: Alabama,

Alaska, Arizona, Arkansas, California, Colorado, District of Columbia
(sometimes), Georgia, Idaho, Maryland, Massachusetts, Michigan,
Minnesota, Mississippi, Missouri, Montana, Nebraska, Nevada, New
Hampshire, New Mexico (sometimes), North Carolina,
ii

TABLE OF CONTENTS

Reply to Respondent's Brief in Opposition to Four Questions Presented
Reply to Respondent's Brief in Opposition to List of

ii

Additional Parties
TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

iv

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED

iv

Reply to Respondent's Brief in Opposition to
STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

2

CONCLUSION

4

iii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Hardin v. City Title & Escrow Co., 797

3

F. 2d 1037, 1041 (D.C. Cir. 1986).
Lawyers title Ins. Corp v. Dearborn Title Corp., 118---

3

F.3d 1157, 1166-67 (7th Cir. 1997)

STATUTES AND RULES

12 U.S.C. ยง2614

i

14th Amendment to the United States Constitution

2

Section 1
nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the
laws.
US Constitution Article VI

2

Paragraph 2

iv

This Constitution, and the Laws of the United States which
shall be made in Pursuance thereof; and all Treaties made,
or which shall be made, under the Authority of the United
States, shall be the supreme Law of the Land; and the
Judges in every State shall be bound thereby, any Thing in
the Constitution or Laws of any State to the Contrary
notwithstanding.

Reply to Respondents Brief in Opposition to
Statement of the Case
As the Respondent's brief in opposition
unwittingly tells the U.S. Supreme Court, many
predatory lenders

stop accepting payments

before they start the dual tracking process.
Typically, after collecting tens of thousands of
dollars in interest and fees from their victims. In
this particular case, close to $80,000. This way,
the lender can say that the borrower has not
made payments. The Respondent unknowingly
tells the court the exact date it stopped accepting
payments; June 2014. While Dual-Tracking is
illegal under federal lami and naturally is a
defense against lenders in federal court, it is not
a defense in non-judicial foreclosure State Court.

1

REASONS TO GRANT THE PETITION

I. This case is about the integrity of res judicataIn Non-Judicial Foreclosure State Courts
versus Federal Courts not the elements of resjudicata.

Therefore, it is a Fourteenth

Amendment and a Supremacy Clause issue.
State Courts have concurrent jurisdiction over
Federal RESPA claims. The "no defense for Federal
loss-mitigation wrong doing by Lenders" in State
Court, where defense for Federal-Loss mitigation is
naturally available in Federal Court makes the two
courts inconsistent and presents a Constitutional
issue. All lenders in Non-Judicial State Court enjoy
the benefit of forum shopping where the victim had
no defense which is what concurrent jurisdiction is
intended to prevent!

2

II.

There is compelling reason for the U.S.
Supreme Court to hear the equitable
tolling issue.
The Respondent does not disagree that there

is currently a circuit split concerning tolling the
Statute of Limitation period for RESPA cases
amongst the 13 courts of Appeals. Compare, e.g.
Hardin v. City Title & Escrow Co., 797 F.2d 1037,
1041 (D.C. Cir. 1986 (finding that equitable
tolling does not apply to RESPA) with Lawyers
Title Ins. Corp.

V.

Dearborn Title Corp., 118 F.3d

1157, 1166-67 (7th Cir. 1997) (finding RESPA is
subject to equitable tolling).
Both, the Federal District Court's
Memorandum, Opinion and Order (pg. 24
Appendix B) and the Magistrate Judge's Report
and Recommendation (Pg. 58 Appendix C)
acknowledge the need to harmonize the circuit
3

split concerning tolling the Statute of Limitation
period for RESPA cases amongst the 13 courts of
Appeals.
The District Court dismissed on the Equitable
Tolling issue as well. Therefore, Equitable Tolling
is also reviewable by the Eleventh Circuit Court.
The fact that the Lenders in the 21 "nonjudicial foreclosure State-Courts can intentionally
dual-tract to use up a borrower's Statute of
Limitation period without impunity as
demonstrated in this case, makes it a compelling
reason for the U.S. Supreme Court to hear this
issue.

CONCLUSION
The Respondent not only agrees with the facts
supporting the four questions before the U.S.

4

Supreme Court for Petition for Writ of Certiorari but
echoes quite a few of the important facts.
Thousands of families are being put out of
their homes by a way of a RESPA (Real Estate
Settlement Procedure Act) loophole found in
Non-Judicial State Court that does not exist in
Federal Court.
There is currently a split amongst the 13
Appellate Courts of the 12 Regional Circuits
concerning tolling of the 3 year statute of
limitation for RESPA (Real Estate Settlement
Procedure Act) cases.
The Respondent simply believes that those issues,
where a tsunami of foreclosures is expected across
the U.S. after the eviction and foreclosure corona
virus moratorium is lifted on 6/30/2021, should
simply not be factors considered by the United States

5

Supreme Court. We, the Petitioners disagree and
humbly pray that the U.S. Supreme Court considers
such factors in its conference concerning this Petition
for Writ of Certiorari.
Respectfully submitted,

ac, a

Date:

6

